Ti

C@OCKLE

2311 Douglas Street Le ga l Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-968
CHIKE UZUEGBUNAM, ET AL.,
Petitioners,
v.
STANLEY C. PRECZEWSKI, ET AL.,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 22nd day of April, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:
CHRISTOPHER M. CARR
Attorney General of Georgia
ANDREW A. PINSON
Solicitor General
Counsel of Record
KATHLEEN M. PACIOUS
Deputy Attorney General
ROGER CHALMERS
Senior Assistant Attorney General
DREW F. WALDBESER
Assistant Solicitor General
ELLEN CUSIMANO
Assistant Attorney General
OFFICE OF THE GEORGIA ATTORNEY
GENERAL
40 Capitol Square, SW
Atlanta, Georgia 30334
(404) 651-9453
apinson@law.ga.gov
Counsel for the State of Georgia

Subscribed and sworn to before me this 22nd day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

    

GENERAL MOTARY-State of Hebraska
RENEE J. GOSS

My Commn, Exp. September 6, 2028

 

 

Notary Public
SERVICE LIST

John J. Bursch

Alliance Defending Freedom

440 First Street, NW

Suite 600

Washington, DC 20001
jbursch@adflegal.org

(616) 450-4235

Counsel of Record for Petitioners
